Cardmember Agreement: Part 1 of 2
As of: 07/01/2021

American Express® Green Card
Issuer: American Express National Bank

Rates and Fees Table
Interest Rates
Annual Percentage Rate
(APR) for Pay Over Time
Feature
APR for Cash Advances
Penalty APR and When
it Applies

Prime Rate + 12.74% to Prime Rate + 19.74%
This is a variable APR. See Explanation of Variable Rates below.
Prime Rate + 21.99%
This is a variable APR. See Explanation of Variable Rates below.
Prime Rate + 26.74%
This is a variable APR. See Explanation of Variable Rates below.
This APR will apply to your Account if you:
1) make one or more late payments; or
2) make a payment that is returned by your bank.
We may also consider your creditworthiness in determining whether or not to apply
the penalty APR to the Pay Over Time balance(s) on your Account.
How Long Will the Penalty APR Apply? If the penalty APR is applied, it will apply
for at least 6 months. We will review your Account every 6 months after the penalty
APR is applied. The penalty APR will continue to apply until you have made timely
payments with no returned payments during the 6 months being reviewed.

Paying Interest

Plan Fee (Fixed Finance
Charge)

For Credit Card Tips from
the Consumer Financial
Protection Bureau
Fees
Annual Membership Fee
Transaction Fees
●

●

Cash Advance
Foreign Transaction

Your due date is at least 25 days after the close of each billing period. We will not charge
you interest on charges automatically added to a Pay Over Time balance if each month
you pay your Account Total New Balance on your billing statement (or, if you have a Plan
balance, your Adjusted Balance on your billing statement) by the due date. If you have
Cash Advance on your Account, we will begin charging interest on cash advances on the
transaction date.
If you are enrolled in Pay Over Time Select: we will begin charging interest on purchases
added to a Pay Over Time Select balance at your request on the date that they are added
to your Pay Over Time Select balance.
For purchase amounts in a Pay Over Time balance: A monthly fee up to 1.33% of each
purchase amount moved into a plan based on the plan duration, the APR that would
otherwise apply to the purchase amount, and other factors. For purchase amounts in a Pay
In Full balance: A monthly fee up to 1.33% of each purchase amount moved into a plan
based on the plan duration, the APR that applies to the Pay Over Time feature at the time
you create the plan, and other factors.
To learn more about factors to consider when applying for or using a credit
card, visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.
$150
Either $10 or 5% of the amount of each cash advance, whichever is greater.
None.

Penalty Fees
●

Late Payment

●

Returned Payment

Up to $40
Up to $40

How we calculate interest: We use the Average Daily Balance method (including new transactions). See the How we
calculate interest section in Part 2.
Explanation of Variable Rates: If the Prime Rate increases, variable APRs (and corresponding DPRs) will increase.
In that case, you may pay more interest and may have a higher Minimum Payment Due. When the Prime Rate
changes, the resulting changes to variable APRs take effect as of the first day of the billing period. The Daily Periodic
Rate (DPR) is 1/365th of the APR, rounded to the nearest one ten-thousandth of a percentage point. The variable
penalty APR will not exceed 29.99%.

CMAEUAOT0000001

Page 1 of 2

How Rates and Fees Work
Rates for Pay Over Time and/or Cash Advance balance(s)
Penalty APR for new
transactions

The penalty APR may apply to new
transactions if:
• you do not pay at least the Minimum
Payment Due by the Payment Due Date
on one or more occasions; or
• your payment is returned by your bank.
We may also consider your creditworthiness
in determining whether or not to apply the
penalty APR to the Pay Over Time
balance(s) on your Account.

If the penalty APR applies to a balance, it will
apply to charges added to that balance 15 or
more days after we send you notice.
We will review your Account every 6 months
after the penalty APR is applied. The penalty
APR will continue to apply until you have made
timely payments with no returned payments
during the 6 months being reviewed.

Fees
Annual Membership

This fee is on the Rates and Fees Table on page 1 of Part 1.

Plan Fee

For purchase amounts in a Pay Over Time balance: Up to 1.33% of each purchase amount moved into a
plan based on the plan duration, the APR that would otherwise apply to the purchase amount, and other
factors. For purchase amounts in a Pay In Full balance: Up to 1.33% of each purchase amount moved
into a plan based on the plan duration, the APR that applies to the Pay Over Time feature at the time you
create the plan, and other factors. This fee is a fixed finance charge that will be charged each month that
a plan is active. The dollar amount of your plan fee will be disclosed before you set up a plan. For more
information, see About the Plan It feature in Part 2.
Up to $40. If we do not receive the Amount Due (or Minimum Payment Due, if applicable) by the
Payment Due Date, the fee is $29. If this happens again within the next 6 billing periods, the fee is
$40. However, the late fee will not exceed the Amount Due (or Minimum Payment Due, if
applicable). Paying late may also result in a penalty APR for new transactions in a Pay Over Time
balance. See Penalty APR for new transactions above.
Up to $40. If you make a payment that is returned unpaid the first time we present it to your bank, the
fee is $29. If you do this again within the same billing period or the next 6 billing periods, the fee is $40.
However, the returned payment fee will not exceed the Amount Due (or Minimum Payment Due, if
applicable). A returned payment may also result in a penalty APR for new transactions in a Pay Over
Time balance. See Penalty APR for new transactions above.
$38 if you use your card to cash a check at one of our approved locations and the check is
returned unpaid. We will also charge you the unpaid amount.

Late Payment

Returned Paym ent

Returned Check
Account Re-opening

$25 if your Account is cancelled, you ask us to re-open it, and we do so.

Cash Advance

5% of an ATM cash advance (including any fee charged by the ATM operator) or other cash
advance, with a minimum of $10. We will add this fee to the Cash Advance balance.
None

Foreign Transaction

How Pay Over Time Works
About the Pay Over Time
feature
See More About Pay Over
Time in Part 2 of this
Agreement for important
additional information about
the Pay Over Time feature.

• We may offer you Pay Over Time, which allows you to pay eligible charges over time, with interest. Pay
Over Time has two settings: on and off. When on, we will automatically add new eligible charges to your
Pay Over Time balance. When off, no new charges will be automatically added to your Pay Over Time
balance. You can change your setting at any time, but your setting at 8 p.m. EST will determine whether a
charge made that day is automatically added to your Pay Over Time balance. To view or change your Pay
Over Time setting, visit your online account or call the number on the back of your Card. If you transfer to a
new Card with the same Account number, your Pay Over Time setting at time of transfer will remain in
effect on your new Card.
• If you have the Pay Over Time Select feature on your Account: you can request to add eligible purchases
not already in a Pay Over Time balance from the current or preceding billing period to your Pay Over Time
Select balance. If we approve your request, we will add the purchase to your Pay Over Time Select
balance. If we decline your request, you must pay the purchase in full by the Payment Due Date.
• If you have the Pay Over Time Travel feature on your Account: we will automatically add eligible travelrelated purchases to your Pay Over Time Travel balance regardless of whether your Pay Over Time setting
is on or off. If you request to cancel your Pay Over Time Travel feature, you will not be able to
re-enroll.

Part 1, Part 2 and any supplements or amendments make up your Cardmember Agreement.

CMAEUFEEPAPR103

Page 2 of 2

FDR 1122704

Cardmember Agreement: Part 2 of 2

Doc 27303

How Your American Express Account Works
Introduction
About your Cardmember
Agreement

This document together with Part 1 make up the
Cardmember Agreement (Agreement) for the Account
identified on page 1 of Part 1. Any supplements or

amendments are also part of the Agreement.

Changing the Agreement

We may change this Agreement, subject to applicable
law. We may do this in response to the business,
legal or competitive environment. This written
Agreement is a final expression of the agreement
governing the Account. The written Agreement may
not be contradicted by any alleged oral agreement.

We cannot increase the interest rate on existing
balances except in limited circumstances. Changes
to some terms may require 45 days advance notice,
and we will tell you in the notice if you have the right
to reject a change. We cannot change certain terms
during the first year of your Cardmembership.

Words we use in the
Agreement

We, us, and our mean the issuer shown on page
1 of Part 1. You and your mean the person who
applied for this Account and for whom we opened
the Account. You and your also mean anyone
who agrees to pay for this Account. You are the
Basic Cardmember. You may request a card for
an Additional Cardmember (see About Additional
Cardmembers in Part 2).

A cash advance is a charge to get cash or cash
equivalents, including travelers cheques, gift
cheques, foreign currency, money orders, digital
currency, casino gaming chips, race track wagers,
similar offline and online betting transactions,
precious metal coins or bullion and digital precious
metals products. A person-to-person transaction is
a charge for funds sent to another person or a charge
TM
to add funds to your Amex Send Account. A plan
is a portion of your account balance that you have
selected to pay through a set number of monthly
payments using Plan It.

Card means any card or other device that we issue to
access your Account. A charge is any amount added
to your Account, such as purchases, cash advances,
fees and interest charges. A purchase is a charge for
goods, services, or person-to-person transactions.

When you use the Account (or you sign or keep the
card), you agree to the terms of the Agreement.

To pay by a certain date means to send your payment
so that we receive it and credit it to your Account by
that date (see About your payments in Part 2).

About using your card
Using the card

You may use the card to make purchases. At
our discretion, we may permit you to make cash
advances.
We decide whether to approve a charge, including
cash advances subject to Limits on Cash Advances
and person-to-person transactions subject to Limits
on person-to-person transactions below, based on
how you spend and pay on this Account and other
accounts you have with us and our Affiliates. We
also consider your credit history and your personal
resources that we know about.
You may arrange for certain merchants and third
parties to store your card number and expiration date,
so that, for example:

Promise to pay

Pay Over Time Limit

Limits on Cash Advances

Version 1122704V2

● the merchant may charge your account at regular
intervals; or
● you may make charges using that stored card
information.
We may (but are not required to) tell these merchants
and third parties if your expiration date or card
number changes or if your account status is updated,
including if your account is cancelled. If you do not
want us to share your updated account information,
please contact us using the number on the back of
your card.
Keep your card safe and don't let anyone else use it.
If your card is lost or stolen or your Account is being
used without your permission, contact us right away.
You may not use your Account for illegal activities.

You promise to pay all charges, including:
● charges you make, even if you do not present your card or sign for the transaction,
● charges that other people make if you let them use your Account, and
● charges that Additional Cardmembers make or permit others to make.
If you have Pay Over Time, we assign a Pay Over Time Limit to your Account. The Pay Over Time Limit
applies to the total of your Pay Over Time, Cash Advance, and Plan balances. Your Pay Over Time balance
cannot exceed your Pay Over Time Limit. When there is a delay in posting cash advances or plans to your
Account, the total of your Pay Over Time, Cash Advance, and Plan balances may exceed your Pay Over Time
Limit. We may approve or decline a charge regardless of whether your Card account balance exceeds or does
not exceed your Pay Over Time Limit. If you have Pay Over Time on your Account, your Pay Over Time Limit
is shown on page 1 of Part 1 and on each billing statement. We may increase or reduce your Pay Over Time
Limit at any time, including when you change the Pay Over Time setting from off to on. We may do so even if
you pay on time and your Account is not in default. We will tell you if we change your Pay Over Time Limit. You
must pay in full, by the Payment Due Date, all charges that are not added to a Pay Over Time, Cash Advance,
or Plan balance.
Your Cash Advance balance may not exceed:
You agree to manage your Account so that your Cash
Advance balance (including fees and interest) is not
®
Zync Card $3,000
more than the Limit on Cash Advances.
Green Card $3,000
For purposes of the Limits on Cash Advances, your
Gold Card $6,000
Cash Advance balance will be determined by adding
®
new cash advance transactions to the ending Cash
Platinum Card $8,000
®
Advance balance of the prior day.
Centurion Card $10,000
In addition, we may not approve a cash advance
There may also be a limit on the amount of cash and
transaction if it would cause the total of your Pay Over
number of times you can obtain cash from ATMs in a
Time and/or Cash Advance balance and Plan balance
given period.
to go over your Pay Over Time Limit.
Page 1 of 9

Limits on person-to-person
transaction

Your person-to-person transactions may not exceed
the following limits within any 30-day period:
®

One from American Express $2,000
®

Zync Card $2,000
Green Card $2,000
Gold Card $2,000

You agree to manage your Account so that the total
of your person-to-person transactions in any 30-day
period do not exceed the limit on person-to-person
transactions.
We may not approve a person-to-person transaction if
it would cause your Account to exceed the applicable
person-to-person transaction limit.

®

Platinum Card $4,000
®

Centurion Card $5,000

Declined transactions

We may decline to authorize a charge. Reasons
we may do this include suspected fraud and our
assessment of your creditworthiness. This may occur
even if your Account is not in default.

We are not responsible for any losses you incur
if we do not authorize a charge. And we are not
responsible if any merchant refuses to accept the
card.

More About Pay Over Time

With Pay Over Time, you have the option to pay
eligible charges over time with interest (see When we
charge interest in Part 2). You can choose to pay your
Account Total New Balance in full each month, the
Minimum Payment Due, or any amount in between
(see When you must pay in Part 2).

Certain charges are not eligible for Pay Over Time,
such as cash and similar transactions. We may
change the charges that are eligible to be added
to your Pay Over Time balance. We may suspend
your Pay Over Time feature at any time based on
our assessment of your creditworthiness, the status
of your Account, and your enrollment in a payment
program. In addition, if your Account is past due, you
will not be able to change your Pay Over Time setting
from off to on.

We automatically add eligible charges, including
Annual Membership Fees, to your Pay Over Time
balance if the Pay Over Time feature is on at 8 p.m.
Eastern Time on the transaction date provided by
the merchant or on the date when an eligible Annual
Membership Fee is charged to your Account. The
transaction date provided by the merchant may
differ from the date you made the purchase if, for
example, there is a delay in the merchant submitting
the transaction to us or if the merchant uses the
shipping date as the transaction date.

About the Plan It feature

We may offer you Plan It, which allows you to
create a payment plan for qualifying purchases or a
qualifying amount, subject to a plan fee. This fee is a
fixed finance charge that will be charged each month
that a plan is active.
You may use this feature by selecting qualifying
purchases or a qualifying amount and a plan duration.
You will be able to view the monthly plan payments,
including the plan fee, for your selection. Each plan
fee will be disclosed before you create the applicable
plan. If you create a plan for a purchase or an amount
in your Pay Over Time balance, the purchase or
amount will be moved to a plan balance and will be
subject to a plan fee instead of the APR that would
otherwise apply to the purchase amount. If you create
a plan for a purchase or amount that is in your Pay In
Full balance, the purchase or amount will be moved
to a plan balance and will be subject to a plan fee
based on the APR that applies to the Pay Over Time
feature at the time you create the plan.
A qualifying purchase for Plan It is a purchase of at
least a specified dollar amount. A qualifying amount
for Plan It is a specified portion of your balance. The
following are not qualifying purchases or amounts:
cash or cash equivalents, purchases subject to
Foreign Transaction Fees, or any fees owed to us,
including Annual Membership Fees.

The Pay Over Time Limit applies to the total of your
Pay Over Time, Cash Advance, and Plan balances.
Your Pay Over Time balance cannot exceed your Pay
Over Time Limit. When there is a delay in posting
cash advances or plans to your Account, the total
of your Pay Over Time, Cash Advance, and Plan
balances may exceed your Pay Over Time Limit.
You must pay in full, by the Payment Due Date, all
charges that are not added to a Pay Over Time, Cash
Advance, or Plan balance.
Your ability to create plans will be based on a variety
of factors such as your creditworthiness and your Pay
Over Time Limit. You may not be able to create a plan
if it would cause you to exceed your Pay Over Time
Limit. You will not be able to create plans if your Pay
Over Time feature is suspended or your Account is
cancelled. You will also not be able to create plans if
one or more of your American Express accounts is
enrolled in a payment program, has a payment that
is returned unpaid, or is past due. We will tell you the
number of active plans you may have, and we may
change this number at any time. The plan durations
offered to you, and your ability to include multiple
qualifying purchases or a qualifying amount in a
single plan, will be at our discretion and will be based
on a variety of factors such as your creditworthiness,
the purchase amount(s), and your Account history.
Plans cannot be cancelled after they have been
created, but you can choose to pay them early by
paying the Account Total New Balance shown on your
most recent billing statement in full. If you pay a plan
off early, you will not incur any future plan fees on that
plan.

About your payments
When you must pay

Version 1122704V2

You must pay the Amount Due, or Minimum Payment
Due, if applicable, no later than the Payment Due
Date shown on your billing statement to avoid a
late payment fee. Each billing statement also states
the time and manner by which you must make your
payment for it to be credited as of the same day it is
received. For your payment to be considered on time,
we must receive it in such time and manner by the
Payment Due Date shown on your billing statement.
Page 2 of 9

Each billing statement also shows a Closing Date.
The Closing Date is the last day of the billing period
covered by the billing statement. Each Closing Date
is about 30 days after the previous billing statement's
Closing Date.

How to make payments

Make payments to us in U.S. dollars with:
● a single check drawn on a U.S. bank, or
● a single negotiable instrument clearable through
the U.S. banking system, for example a money
order, or
● an electronic payment that can be cleared through
the U.S. banking system.
When making a payment by mail:
● make a separate payment for each account,
● mail your payment to the address shown on the
payment coupon on your billing statement, and
● write your Account number on your check or
negotiable instrument and include the payment
coupon.
If your payment meets the above requirements, we
will credit it to your Account as of the day we receive
it, as long as we receive it by the time disclosed in

How we apply payments and
credits

If your statement includes a Pay Over Time and/
or Cash Advance New Balance or Plan Balance, it
will show a Minimum Payment Due. The Minimum
Payment Due includes the Pay in Full New Balance
plus the Pay Over Time and/or Cash Advance
Minimum Due and the Plan Payment Due. Your
Account may have balances with different interest
rates. For example, a Pay Over Time balance may
have a lower interest rate than a Cash Advance
balance. Your Account may also have Plan balances
which are assessed plan fees. Below is how we
generally apply payments in a billing period:
● We apply your payments – up to the Minimum
Payment Due – first to the Pay in Full New
Balance and then to any plan amounts included in
your Minimum Payment Due, then to the Pay Over
Time and/or Cash Advance New Balance. When
applying a payment to the Pay Over Time and/or
Cash Advance balances, we apply it first to the
balance with the lowest interest rate and then to
balances with higher interest rates.

your billing statement. If we receive it after that time,
we will credit the payment on the day after we receive
it.
If your payment does not meet the above
requirements, there may be a delay in crediting your
Account. This may result in late fees and additional
interest charges (see the Rates and Fees Table and
How Rates, Fees and Pay Over Time Work in Part 1).
We will not accept a payment made in a foreign
currency or a payment drawn on an account at a bank
located outside of the U.S.
If we process a late payment, a partial payment, or a
payment marked with any restrictive language, that
will have no effect on our rights and will not change
this Agreement.
● After the Minimum Payment Due has been paid,
we apply payments first to the Pay Over Time
and/or Cash Advance balances with the highest
interest rate and then to balances with lower
interest rates, and then to any Plan balances.
In most cases, we apply a credit to the same balance
as the related charge. We may apply payments and
credits within balances, and among balances with
the same interest rate, in any order we choose. If you
receive a credit for a purchase added to a plan, you
must call us at the number on the back of your card to
have the credit applied to the plan balance.

About your Minimum Payment Due
How we calculate your
Minimum Payment Due

The Minimum Payment Due is the sum of the following on your billing statement:
A. The Pay In Full New Balance
B. Any Pay Over Time and/or Cash Advance Minimum Due
C. Any Plan Payment Due
Above amounts include any past due amounts.
Your Pay Over Time and/or Cash Advance Minimum Due is the highest of:
(1) $40
(2) 2% of the Pay Over Time and/or Cash Advance New Balance
(3) The total calculated by following these steps: Use the Pay Over Time and/or Cash Advance New Balance
minus the Interest charged on the billing statement as the Amount to calculate the sum of (a) through (c)
below:
(a) 1% of the Amount from $0 through $20,000
(b) 2% of the Amount from $20,000.01 through $35,000
(c) 5% of the Amount above $35,000
Then continue with the following steps:
(d) Divide the sum from steps (a) through (c) by the Amount and round to four decimals
(e) Multiply by the Amount
(f) Add the Interest charged on the billing statement
Plus any Pay Over Time and/or Cash Advance amount past due.
Your Pay Over Time and/or Cash Advance Minimum Due will not exceed your Pay Over Time and/or Cash
Advance New Balance. You may pay more than the Minimum Payment Due, up to your entire outstanding
balance, at any time.
EXAMPLE: You have: a Pay In Full New Balance of $200 and a Pay Over Time and/or Cash Advance New
Balance of $30,300, which includes Interest of $300
(1) $40
(2) 2% multiplied by $30,300 equals $606
(3) $30,300 minus $300 equals $30,000
(a) 1% multiplied by $20,000 equals $200
(b) 2% multiplied by ($30,000 minus $20,000) equals $200
(d) ($200 plus $200) divided by $30,000 equals 0.0133
(e) $30,000 multiplied by 0.0133 equals $399
(f) $399 plus $300 equals $699
The highest of (1), (2) or (3) is $699. The Pay Over Time and/or Cash Advance Minimum Due of $699 plus the
Pay in Full New Balance of $200 together make up the Minimum Payment Due of $899.

Version 1122704V2

Page 3 of 9

About interest charges on Pay Over Time and Cash Advance balances
When we charge interest

We charge interest on Pay Over Time Balances as described below. For cash advances, we charge interest
from the transaction date. You cannot avoid paying interest on cash advances.
For charges added automatically to a Pay Over Time balance, we charge interest from the transaction date until
they are paid. However, we will not charge interest on these charges in a billing period if:
● your Pay Over Time Previous Balance for the billing period is zero, your Account is not past due, and you
pay your Amount Due (or Minimum Payment Due if applicable) by the Payment Due Date; or
● you paid the Account Total New Balance on your billing statement (if any) or Adjusted Balance (if you have
an active plan created through Plan It) for each of the previous two billing periods in full by the Payment Due
Date shown on each of those billing statements.
If you have or had Pay Over Time Select on your account: you are charged interest on purchases added to a
Pay Over Time Select balance at your request from the date they are added to a Pay Over Time Select balance
until they are paid.

How we calculate interest

We calculate interest for a billing period by first figuring the interest on each balance. Balances within the Pay
Over Time feature and Cash Advance balances may have different interest rates.
We use the Average Daily Balance method
(including new transactions) to figure interest
charges for each balance. The total interest charged
for a billing period is the sum of the interest charged
on each balance.
Interest
The interest charged for a balance in a billing period,
except for variations caused by rounding, equals:
(1) Average Daily Balance (ADB) multiplied by
(2) Daily Periodic Rate (DPR) multiplied by
(3) number of days the DPR was in effect.
ADB
To get the ADB for a balance, we add up its daily
balances. Then we divide the result by the number
of days the DPR for that balance was in effect. If the
daily balance is negative, we treat it as zero.
DPR
A DPR is 1/365th of an APR, rounded to one tenthousandth of a percentage point. Your DPRs are
shown in How Rates and Fees Work in Part 1.
EXAMPLE: Calculating Interest
Assume that you have a single interest rate of
15.99%, your ADB is $2,250 and there are 30 days in
the billing period.
The DPR is 15.99% divided by 365 days = 0.0438%
The Interest is $2,250 multiplied by 0.0438%
multiplied by 30 days = $29.57

Determining the Prime Rate

Daily Balance
For each day a DPR is in effect, we figure the daily
balance for each balance by:
● taking the beginning balance for the day,
● adding any new charges,
● subtracting any payments or credits; and
● making any appropriate adjustments.
We add a new charge to a daily balance as of its
transaction date.
Beginning balance
For the first day of a billing period, the beginning
balance is the ending balance for the prior billing
period, including unpaid interest. For the rest of the
billing period, the beginning balance is the previous
day's daily balance plus an amount of interest equal
to the previous day's daily balance multiplied by the
DPR for that balance. This method of figuring the
beginning balance results in daily compounding of
interest.
When an interest rate changes, the new DPR may
come into effect during-not just at the beginning ofthe billing period. When this happens, we will create
a new balance and apply the new DPR to it. To get
the beginning balance on the first day for this new
balance, we multiply the previous day's daily balance
by the old DPR and add the result to that day's daily
balance.
Other methods
To figure the ADB and interest charges, we may use
other formulas or methods that produce equivalent
results. Also, we may choose not to charge interest on
certain types of charges.

We use the Prime Rate from the rates section of The Wall Street Journal. The Prime Rate for each billing period
is the Prime Rate published in The Wall Street Journal on the Closing Date of the billing period.
The Wall Street Journal may not publish the Prime Rate on that day. If it does not, we will use the Prime Rate
from the previous day it was published. If The Wall Street Journal is no longer published, we may use the Prime
Rate from any other newspaper of general circulation in New York, New York. Or we may choose to use a
similar published rate.
If the Prime Rate increases, variable APRs (and corresponding DPRs) will increase. In that case, you may pay
more interest and may have a higher Minimum Payment Due. When the Prime Rate changes, the resulting
changes to variable APRs take effect as of the first day of the billing period.

Other important information
Military Lending Act

Federal law provides important protections to members of the Armed Forces and their dependents relating
to extensions of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces
and his or her dependent may not exceed an annual percentage rate of 36 percent. This rate must include, as
applicable to the credit transaction or account: the costs associated with credit insurance premiums; fees for
ancillary products sold in connection with the credit transaction; any application fee charged (other than certain
application fees for specified credit transactions or accounts); and any participation fee (other than certain
participation fees for a credit card account).
To listen to this statement, as well as a description of your payment obligation for this Account, call us at
855-531-0379.
If you are a covered borrower, the Claims Resolution section of this Agreement will not apply to you in
connection with this Account. Instead, the Claims Resolution for Covered Borrowers section will apply.

Version 1122704V2

Page 4 of 9

About Additional
Cardmembers

At your request, we may issue cards to Additional
Cardmembers. They do not have accounts with us
but they can use your Account subject to the terms
of this Agreement. We may report an Additional
Cardmember's use of your Account to credit reporting
agencies.
You are responsible for all use of your Account by
Additional Cardmembers and anyone they allow to
use your Account. You must pay for all charges they
make.

Converting charges made in a
foreign currency

Changing your billing address

Closing your Account

If you want to cancel an Additional Cardmember's
right to use your Account (and cancel their card) you
must tell us.
If an Annual Membership fee applies for an Additional
Card, please refer to the refund policy disclosed
in the Closing your Account sub-section of your
Cardmember Agreement. If a single Annual
Membership fee applies for a group of Additional
Cards on your Account, this policy will apply when you
cancel the Additional Card on which the fee was
assessed. If an Annual Membership fee applies to
Additional Cards on your Account, it is shown on page
2 of Part 1 of the Cardmember Agreement.

You authorize us to give Additional Cardmembers
information about your Account and to discuss it with
them.
If you make a charge in a foreign currency, AE Exposure Management Ltd. ("AEEML") will convert it into
U.S. dollars on the date we or our agents process it, so that we bill you for the charge in U.S. dollars based
upon this conversion. Unless a particular rate is required by law, AEEML will choose a conversion rate that is
acceptable to us for that date. The rate AEEML uses is no more than the highest official rate published by a
government agency or the highest interbank rate AEEML identifies from customary banking sources on the
conversion date or the prior business day. This rate may differ from rates that are in effect on the date of your
charge. We will bill charges converted by establishments (such as airlines) at the rates they use.
You must notify us immediately if you change the:
● mailing address where we send billing statements;
or
● e-mail address to which we send notice that your
billing statement is available online.

If you have more than one account, you need to notify
us separately for each account.
We may update your billing address if we receive
information that it has changed or is incorrect.

You may close your Account by calling us or writing to us.
If an Annual Membership fee applies, we will refund this fee if you notify us that you are voluntarily closing your
Account within 30 days of the Closing Date of the billing statement on which that fee appears. For cancellations
after this 30 day period, the Annual Membership fee is non-refundable. If an Annual Membership fee applies to
your Account, it is shown on page 1 and page 2 of Part 1 of the Cardmember Agreement.
If your billing address is in the Commonwealth of Massachusetts at the time you close your account, this policy
will not apply to you.

Cancelling or suspending your
Account

We may:
● cancel your Account,
● suspend the ability to make charges,
● cancel or suspend any feature on your Account,
and
● notify merchants that your Account has been
cancelled or suspended.
If we do any of these, you must still pay us for all
charges under the terms of this Agreement.

We may do any of these things at our discretion, even
if you pay on time and your Account is not in default.
If your Account is cancelled, you must destroy your
cards.
We may agree to reinstate your Account after a
cancellation. If we do this, we may:
● reinstate any additional cards issued on your
Account,
● charge you any applicable annual fees, and
● charge you a fee for reinstating the Account.

About default

We may consider your Account to be in default if:
● you violate a provision of this Agreement,
● you give us false information,
● you file for bankruptcy,
● you default under another agreement you have
with us or an affiliate,
● you become incapacitated or die, or
● we believe you are unable or unwilling to pay your
debts when due.

Collection costs
Credit reports

You agree to pay all reasonable costs, including attorneys' fees, that we incur to collect amounts you owe.

If we consider your Account in default, we may, to the
extent permitted by federal and applicable state law:
● suspend your ability to make charges,
● cancel or suspend any feature on your Account,
● require you to pay more than your Minimum
Payment Due immediately, and
● require you to pay your Account balance
immediately.

You agree that we will obtain credit reports about you, investigate your ability to pay, and obtain information
about you from other sources including information to verify and re-verify your employment and income. And
you agree that we will use such information for any purposes (for example, marketing to you or evaluating you
for a new account), subject to applicable law.
You agree that we will give information about the Account to credit reporting agencies. We will tell a credit
reporting agency if you fail to comply with any term of this Agreement. This may have a negative impact on
your credit report.
If you believe information we have given to a credit reporting agency is incorrect, write to us at: American
Express Credit Bureau Unit, P.O. Box 981537, El Paso, TX 79998-1537. When you write to us, tell us the
specific information you believe is incorrect.

Sending you notices

Version 1122704V2

We mail you notices through the U.S. mail, postage prepaid, and address them to you at the latest billing
address on our records. Any notice that we send you this way is deemed to be given when deposited in the
U.S. mail.

Page 5 of 9

We may contact you

Servicing and Collections
If we need to contact you to service your account or to collect amounts you owe, you authorize us (and our
affiliates, agents and contractors, such as debt collection agencies and service providers) to contact you at
any phone number or email address you provide, from which you contact us, or at which we believe we can
reach you. We may contact you in any way, such as calling, texting, emailing, sending mobile application push
notifications or using any other method of communication permitted by law. We may contact you using an
automated dialer or prerecorded messages. We may contact you on a mobile, wireless or similar device, even
if you are charged for it.
Call monitoring
We may monitor and record any calls between you and us.

About insurance products

We or our affiliates may tell you about insurance and non-insurance products, services or features that
may have a fee. One of our affiliates may act on behalf of a provider of these products. The affiliate may be
compensated for this. The insurance products are not offered or sold by us or on our behalf. Our affiliates may
get additional compensation when AMEX Assurance Company or another affiliate is the insurer or reinsurer.
Compensation may influence what products and providers we or our affiliates tell you about.
We may share information about you with our affiliates so they can identify products that may interest you. We
may be compensated for this information.

How we handle electronic
debits from your checking
account

When you pay us by check, you authorize us to
electronically deduct the amount from your bank
or other asset account. We may process the check
electronically by transmitting to your financial
institution:
● the amount,
● the routing number,
● the account number, and
● the check serial number.

If we do this, your payment may be deducted from
your bank or other asset account on the same day
we receive your check. Also, you will not receive that
cancelled check with your bank or asset account
billing statement.
If we cannot collect the funds electronically, we may
issue a draft against your bank or other asset account
for the amount of the check.

Privacy Act of 1974 notice

Some federal agencies may accept the card under authority of statute. When you make charges at these
agencies, we collect certain charge information. That information may be put to routine uses such as
processing, billing and collections. It may also be aggregated for reporting, analysis and marketing use. Other
routine uses by agencies may be published in the Federal Register.

Changing benefits
Assigning the Agreement

We have the right to add, modify or delete any benefit or service of your Account at our discretion.

Assigning claims

If you dispute a charge with a merchant, we may credit
the Account for all or part of the disputed charge. If
we do so, you assign and transfer to us all rights and
claims (excluding tort claims) against the merchant.

We do not waive our rights

We may choose to delay enforcing or to not exercise rights under this Agreement. If we do this, we do not waive
our rights to exercise or enforce them on any other occasion.

Governing law

Utah law and federal law govern this Agreement and
your Account. They govern without regard to internal
principles of conflicts of law. We are located in Utah.
We hold your Account in Utah. We entered into this
Agreement with you in Utah.

Notice to Oregon Residents

Service charges not in excess of those permitted by law will be charged on the outstanding balances from
month to month. You may pay more than the Minimum Payment Due, up to your entire outstanding balance, at
any time.

Notice for residents of
Washington State

In accordance with the Revised Code of Washington Statutes, Section 63.14.167, you are not responsible for
payment of interest charges that result solely from a merchant's failure to transmit to us within seven working
days a credit for goods or services accepted for return or forgiven if you have notified us of the merchant's delay
in posting such credit, or our failure to post such credit to your account within three working days of our receipt
of the credit.

We may sell, transfer or assign this Agreement and your Account. We may do so at any time without notifying
you. You may not sell, assign or transfer your Account or any of your obligations under this Agreement.
You agree that you will not pursue any claim against
the merchant for the credited amount. And you must
cooperate with us if we decide to do so.

In addition, if your billing address is in the State
of Maryland, to the extent, if any, that Maryland
law applies to your account, we elect to offer your
card account pursuant to Title 12, Subtitle 9 of the
Maryland Commercial Law Article.

Claims Resolution
Most customer concerns can be resolved by
calling our Customer Service Department at the
number listed on the back of your card. In the
event Customer Service is unable to resolve
a complaint to your satisfaction, this section
explains how claims can be resolved through
mediation, arbitration or litigation. It includes
an arbitration provision. You may reject the
arbitration provision by sending us written
notice within 45 days after your first card
purchase. See Your Right to Reject Arbitration
below.
For this section, you and us includes any
corporate parents, subsidiaries, affiliates or
related persons or entities. Claim means any
current or future claim, dispute or controversy
Version 1122704V2

relating to your Account(s), this Agreement, or
any agreement or relationship you have or had
with us, except for the validity, enforceability
or scope of the Arbitration provision. Claim
includes but is not limited to: (1) initial claims,
counterclaims, crossclaims and third-party
claims; (2) claims based upon contract, tort,
fraud, statute, regulation, common law and
equity; (3) claims by or against any third party
using or providing any product, service or
benefit in connection with any account; and
(4) claims that arise from or relate to (a) any
account created under any of the agreements,
or any balances on any such account, (b)
advertisements, promotions or statements
related to any accounts, goods or services
Page 6 of 9

financed under any accounts or terms of
financing, (c) benefits and services related
to card membership (including fee-based or
free benefit programs, enrollment services and
rewards programs) and (d) your application
for any account. You may not sell, assign or
transfer a claim.
Sending a Claim Notice
Before beginning a lawsuit, mediation or
arbitration, you and we agree to send a
written notice (a claim notice) to each party
against whom a claim is asserted, in order
to provide an opportunity to resolve the
claim informally or through mediation. Go to
americanexpress.com/claim for a sample claim
notice. The claim notice must describe the

claim and state the specific relief demanded.
Notice to you may be provided by your billing
statement or sent to your billing address. Notice to
us must include your name, address and Account
number and be sent to American Express ADR c/
o CT Corporation System, 28 Liberty Street, New
York, New York 10005. If the claim proceeds to
arbitration, the amount of any relief demanded in
a claim notice will not be disclosed to the arbitrator
until after the arbitrator rules.
Mediation
In mediation, a neutral mediator helps parties
resolve a claim. The mediator does not decide the
claim but helps parties reach agreement.
Before beginning mediation, you or we must first
send a claim notice. Within 30 days after sending
or receiving a claim notice, you or we may submit
the claim to JAMS (1-800-352-5267, jamsadr.com)
or the American Arbitration Association ("AAA")
(1-800-778-7879, adr.org) for mediation. We will
pay the fees of the mediator.
All mediation-related communications are
confidential, inadmissible in court and not subject
to discovery.
All applicable statutes of limitation will be tolled
from the date you or we send the claim notice
until termination of the mediation. Either you or
we may terminate the mediation at any time.
The submission or failure to submit a claim to
mediation will not affect your or our right to elect
arbitration.
Arbitration
You or we may elect to resolve any claim by
individual arbitration. Claims are decided by a
neutral arbitrator.
If arbitration is chosen by any party, neither
you nor we will have the right to litigate that
claim in court or have a jury trial on that claim.
Further, you and we will not have the right
to participate in a representative capacity
or as a member of any class pertaining to
any claim subject to arbitration. Arbitration
procedures are generally simpler than the
rules that apply in court, and discovery is more
limited. The arbitrator's authority is limited
to claims between you and us alone. Claims
may not be joined or consolidated unless you
and we agree in writing. An arbitration award
and any judgment confirming it will apply only
to the specific case and cannot be used in
any other case except to enforce the award.
The arbitrator's decisions are as enforceable
as any court order and are subject to very
limited review by a court. Except as set forth
below, the arbitrator's decision will be final and
binding. Other rights you or we would have in
court may also not be available in arbitration.
Initiating Arbitration
Before beginning arbitration, you or we must first
send a claim notice. Claims will be referred to
either JAMS or AAA, as selected by the party
electing arbitration. Claims will be resolved
pursuant to this Arbitration provision and the
selected organization's rules in effect when
the claim is filed, except where those rules
conflict with this Agreement. If we choose the
organization, you may select the other within 30
days after receiving notice of our selection.

Version 1122704V2

Contact JAMS or AAA to begin an arbitration
or for other information. Claims also may be
referred to another arbitration organization if
you and we agree in writing or to an arbitrator
appointed pursuant to section 5 of the Federal
Arbitration Act, 9 U.S.C. sec. 1-16 (FAA).

pursuant to the arbitration organization's
appellate rules. Judgment upon any award
may be entered in any court having jurisdiction.
At your election, arbitration hearings will take
place in the federal judicial district of your
residence.

We will not elect arbitration for any claim you
file in small claims court, so long as the claim is
individual and pending only in that court.

Arbitration Fees and Costs
You will be responsible for paying your share
of any arbitration fees (including filing,
administrative, hearing or other fees), but only
up to the amount of the filing fees you would
have incurred if you had brought a claim in
court. We will be responsible for any additional
arbitration fees. At your written request, we
will consider in good faith making a temporary
advance of your share of any arbitration fees,
or paying for the reasonable fees of an expert
appointed by the arbitrator for good cause.

You or we may otherwise elect to arbitrate
any claim at any time unless it has been filed
in court and trial has begun or final judgment
has been entered. Either you or we may delay
enforcing or not exercise rights under this
Arbitration provision, including the right to
arbitrate a claim, without waiving the right to
exercise or enforce those rights.
Limitations on Arbitration
If either party elects to resolve a claim by
arbitration, that claim will be arbitrated on
an individual basis. There will be no right
or authority for any claims to be arbitrated
on a class action basis or on bases
involving claims brought in a purported
representative capacity on behalf of the
general public, other cardmembers or other
persons similarly situated.
Notwithstanding any other provision and
without waiving the right to appeal such
decision, if any portion of these Limitations on
Arbitration is deemed invalid or unenforceable,
then the entire Arbitration provision (other than
this sentence) will not apply.
Arbitration Procedures
This Arbitration provision is governed by
the FAA. The arbitrator will apply applicable
substantive law, statutes of limitations and
privileges. The arbitrator will not apply any
federal or state rules of civil procedure or
evidence in matters relating to evidence
or discovery. Subject to the Limitations on
Arbitration, the arbitrator may otherwise award
any relief available in court. You and we agree
that the arbitration will be confidential. You
and we agree that we will not disclose the
content of the arbitration proceeding or its
outcome to anyone, but you or we may notify
any government authority of the claim as
permitted or required by law. If your claim is for
$10,000 or less, you may choose whether the
arbitration will be conducted solely on the basis
of documents, through a telephonic hearing,
or by an in-person hearing. At any party's
request, the arbitrator will provide a brief written
explanation of the award. The arbitrator's award
will be final and binding, subject to each party's
right to appeal as stated in this section and/
or to challenge or appeal an arbitration award
pursuant to the FAA. To initiate an appeal, a
party must notify the arbitration organization
and all parties in writing within 35 days after
the arbitrator's award is issued. The arbitration
organization will appoint a three-arbitrator panel
to decide anew, by majority vote based on
written submissions, any aspect of the decision
objected to. The appeal will otherwise proceed

Page 7 of 9

Additional Arbitration Awards
If the arbitrator rules in your favor for an
amount greater than any final offer we made
before the final hearing in arbitration, the
arbitrator's award will include:
(1) any money to which you are entitled, but
in no case less than $5,000; and (2) any
reasonable attorneys' fees, costs and expert
and other witness fees.
Your Right to Reject Arbitration
You may reject this Arbitration provision by
sending a written rejection notice to us at:
American Express, P.O. Box 981556, El Paso,
TX 79998. Go to americanexpress.com/reject
for a sample rejection notice. Your rejection
notice must be mailed within 45 days after your
first card purchase. Your rejection notice must
state that you reject the Arbitration provision
and include your name, address, Account
number and personal signature. No one else
may sign the rejection notice. If your rejection
notice complies with these requirements, this
Arbitration provision and any other arbitration
provisions in the cardmember agreements for
any other currently open American Express
accounts you have will not apply to you, except
for Corporate Card accounts and any claims
subject to pending litigation or arbitration at the
time you send your rejection notice. Rejection
of this Arbitration provision will not affect your
other rights or responsibilities under this Claims
Resolution section or the Agreement. Rejecting
this Arbitration provision will not affect your
ability to use your card or any other benefit,
product or service you may have with your
Account.
Continuation
This section will survive termination of your
Account, voluntary payment of your Account
balance, any legal proceeding to collect a debt,
any bankruptcy and any sale of your Account
(in the case of a sale, its terms will apply to the
buyer of your Account). If any portion of this
Claims Resolution section, except as otherwise
provided in the Limitations on Arbitration
subsection, is deemed invalid or unenforceable,
it will not invalidate the remaining portions of
this Claims Resolution section.

Claims Resolution for Covered Borrowers
Most customer concerns can be resolved by
calling our Customer Service Department at the
number listed on the back of your Card. In the
event Customer Service is unable to resolve
a complaint to your satisfaction, this section
explains how claims can be resolved through
litigation, non-binding mediation or, at your
election, arbitration. You are not required to
resolve any claims by mediation and arbitration.
For this section, you and us includes any
corporate parents, subsidiaries, affiliates or
related persons or entities. Claim means any
current or future claim, dispute or controversy
relating to your Card account, this Agreement,
or any agreement or relationship you have or
had with us, except for the validity, enforceability
or scope of the Arbitration provision. Claim
includes but is not limited to: (1) initial claims,
counterclaims, cross-claims and third-party
claims; (2) claims based upon contract, tort,
fraud, statute, regulation, common law and equity;
(3) claims by or against any third party using
or providing any product, service or benefit in
connection with any account; and (4) claims that
arise from or relate to (a) any account created
under any of the agreements or any balances on
any such account, (b) advertisements, promotions
or statements related to any accounts, goods or
services financed under any accounts or terms
of financing, (c) benefits and services related
to Card membership (including fee-based or
free benefit programs, enrollment services and
rewards programs) and (d) your application for
any account. You may not sell, assign or transfer
a claim.
Sending a Claim Notice
Before beginning a lawsuit, arbitration or
non-binding mediation, you may send a
written notice (a claim notice) to us. Go to
americanexpress.com/claim for a sample claim
notice. The claim notice should describe the claim
and state the specific relief demanded. We may
also request that we resolve a claim by mediation
or arbitration, but you are not required to accept
our request. We may include our request with your
billing statement or mail it to your home address.
Notice to us must include your name, address
and Account number and be sent to American
Express ADR c/o CT Corporation System, 28
Liberty Street, New York, New York 10005. If
the claim proceeds to litigation, mediation or
arbitration, the amount of any relief demanded
in a claim notice will not be disclosed. You are
not required to resolve your claim through
mediation or arbitration. You may decline our
request to resolve a claim through mediation
or arbitration. You may elect to resolve your
claim through litigation.
Mediation
If you elect to resolve your claim through
mediation, a neutral mediator will help resolve
the claim. The mediator does not decide the
claim but helps parties reach agreement. Before
beginning mediation, you or we must first send
a claim notice. Within 30 days after sending or
receiving a claim notice, you or we may submit
the claim to JAMS (1-800-352-5267, jamsadr.com)
or the American Arbitration Association ("AAA")
(1-800-778-7879, adr.org) for mediation. We will
pay the fees of the mediator. All mediation-related
communications are confidential, inadmissible in
court and not subject to discovery. All applicable
Version 1122704V2

statutes of limitation will be tolled from the
date you or we send the claim notice until
termination of the mediation. Either you or
we may terminate the mediation at any time.
The submission or failure to submit a claim
to mediation will not affect your or our right
to elect litigation or arbitration. The outcome
of mediation proceedings is non-binding.
You may proceed to litigation or arbitration
regardless of the outcome of mediation.
Arbitration
You may elect, but are not required, to resolve
any claim by individual arbitration. We may
also request to resolve any claim by individual
arbitration, but you are not required to accept
our request. Claims are decided by a neutral
arbitrator.
If you elect or agree to resolve a claim
through arbitration, your or our right to
litigate that claim in court or have a jury trial
on that claim may be limited. Further, you
and we may not have the right to participate
in a representative capacity or as a member
of any class pertaining to any claim subject
to arbitration. Arbitration procedures are
generally simpler than the rules that apply
in court, and discovery is more limited. The
arbitrator's authority is limited to claims
between you and us alone. Claims may not
be joined or consolidated unless you and
we agree in writing. An arbitration award
and any judgment confirming it will apply
only to the specific case and cannot be
used in any other case except to enforce
the award. The arbitrator's decisions are
as enforceable as any court order and are
subject to very limited review by a court.
Except as set forth below, the arbitrator's
decision will be final and binding. Other
rights you or we would have in court may
also not be available in arbitration.
Initiating Arbitration
If you and we agree to proceed to arbitration,
claims will be referred to either JAMS or
AAA, as selected by the party electing
arbitration. Claims will be resolved pursuant
to this Arbitration provision and the selected
organization's rules in effect when the claim
is filed, except where those rules conflict with
this Agreement. If we choose the organization,
you may select the other within 30 days after
receiving notice of our selection. Contact JAMS
or AAA to begin an arbitration or for other
information.
Claims also may be referred to another
arbitration organization if you and we agree in
writing or to an arbitrator appointed pursuant
to section 5 of the Federal Arbitration Act, 9
U.S.C. sec. 1-16 (FAA). We will not request
arbitration for any claim you file in small claims
court, so long as the claim is individual and
pending only in that court. You may otherwise
elect to arbitrate any claim at any time unless
it has been filed in court and trial has begun or
final judgment has been entered.
Limitations on Arbitration
If the parties agree to resolve a claim by
arbitration, that claim will be arbitrated
on an individual basis pursuant to that
agreement, and the agreement would not
allow claims to be arbitrated on a class
Page 8 of 9

action basis or on bases involving claims
brought in a purported representative
capacity on behalf of the general public,
other Cardmembers, or other persons
similarly situated.
Notwithstanding any other provision and without
waiving the right to appeal such decision, if
any portion of these Limitations on Arbitration
provisions is deemed invalid or unenforceable,
then the entire Arbitration provision (other than
this sentence) will not apply.
Arbitration Procedures
This Arbitration provision is governed by
the FAA. The arbitrator will apply applicable
substantive law, statutes of limitations and
privileges. The arbitrator will not apply any
federal or state rules of civil procedure or
evidence in matters relating to evidence
or discovery. Subject to the Limitations on
Arbitration provisions, the arbitrator may
otherwise award any relief available in court.
You and we agree that the arbitration will be
confidential. You and we agree that we will
not disclose the content of the arbitration
proceeding or its outcome to anyone, but you or
we may notify any government authority of the
claim as permitted or required by law.
If your claim is for $10,000 or less, you
may choose whether the arbitration will be
conducted solely on the basis of documents,
through a telephonic hearing, or by an in
person hearing. At any party's request, the
arbitrator will provide a brief written explanation
of the award. The arbitrator's award will be
final and binding, subject to each party's right
to appeal as stated in this section and/or
to challenge or appeal an arbitration award
pursuant to the FAA. To initiate an appeal, a
party must notify the arbitration organization
and all parties in writing within 35 days after
the arbitrator's award is issued. The arbitration
organization will appoint a three-arbitrator panel
to decide anew, by majority vote based on
written submissions, any aspect of the decision
objected to. The appeal will otherwise proceed
pursuant to the arbitration organization's
appellate rules. Judgment upon any award
may be entered in any court having jurisdiction.
At your election, arbitration hearings will take
place in the federal judicial district of your
residence.
Arbitration Fees and Costs
You will be responsible for paying your share
of any arbitration fees (including filing,
administrative, hearing or other fees), but only
up to the amount of the filing fees you would
have incurred if you had brought a claim in
court. We will be responsible for any additional
arbitration fees. At your written request, we
will consider in good faith making a temporary
advance of your share of any arbitration fees,
or paying for the reasonable fees of an expert
appointed by the arbitrator for good cause.
Additional Arbitration Awards
If the arbitrator rules in your favor for an amount
greater than any final offer we made before the
final hearing in arbitration, the arbitrator's award
will include:
(1) any money to which you are entitled, but
in no case less than $5,000; and (2) any
reasonable attorneys' fees, costs and expert
and other witness fees.

Continuation
This section will survive termination of your
Account, voluntary payment of your Account
balance, any legal proceeding to collect a debt,
any bankruptcy and any sale of your Account

9HUVLRQ9

(in the case of a sale, its terms will apply to the
buyer of your Account). If any portion of this
Claims Resolution section, except as otherwise
provided in the Limitations on Arbitration

Page 9 of 9

subsection, is deemed invalid or unenforceable,
it will not invalidate the remaining portions of
this Claims Resolution section.

